                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS
                                              CLOSEOUT MEMORANDUM

Case Number: A-02030025
                                                                                     11            Page 1 of 2
                                                                                                                     11
      We received an allegation that the subject,' after receiving the complainant's2 NSF proposal3to
      review, stole ideas from it, using them in her own proposal to another federal agency.4 The
      complainant submitted the NSF proposal 1 week after he completed his postdoctoral research
      appointment under the subject's supervision. The subject, who had received the complainant's NSF
      proposal to review, declared a COI and did not review the proposal.

      The subject submitted a proposal to another federal agency a few months after she had received the
      complainant's NSF proposal to review. We compared the two proposals and observed that,
      although they were similar, they were not identical. As part of our review of this case we learned
      the following additional information:

           1. The complainant and the subject co-authored several publications both during and after the
              complainant's post doctoral appointment on the same topic as their proposals;

           2. The subject wrote a letter of support for the complainant's proposal, which was included in
              his NSF proposal. The letter gave the complainant permission to use any unpublished data
              generated while he was a postdoctoral researcher in her laboratory. The letter also stated
              that the subject planned to submit a proposal based on these same data in the near future;

           3. Ad hoc reviewers of the complainant's NSF proposal stated that the complainant and the
              subject had been involved in specific discoveries together while he worked in her laboratory
              and that the subject's future proposal, mentioned in her letter of support for the complainant,
              would likely overlap with the complainant's proposal;

           4. The complainant provided copies of email exchanges with the subject after he had finished
              his postdoctoral appointment with the subject. The emails showed that the original
              collaborative relationship had failed.



                                                                                                            at the

                                                                       at the

      4
                                                                ," submitted by the subject and signed on


                           Agent                  Attorney                      Supervisor                    AIGI   111
  Sign l date    I                        I                        I                           I
